Audit Report




OIG-07-040
EXPORT CONTROLS: CFIUS and OFAC Implemented Prior OIG
Recommendations
June 12, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report.................................................................................................. 3

    Results in Brief............................................................................................. 4

    Background ................................................................................................. 5

    Findings and Recommendations ..................................................................... 8

        CFIUS Established and Implemented Procedures to Help Identify Nonfilers ...... 8

        OFAC Has Taken Steps to Track Referrals to Other Agencies but Lacks
        Written Policy ......................................................................................... 9

        Recommendations................................................................................... 10


Appendices

    Appendix     1:      Objective, Scope, and Methodology…………………………..........                                 12
    Appendix     2:      Management Comments........................................................           13
    Appendix     3:      Major Contributors To This Report ..........................................          15
    Appendix     4:      Report Distribution................................................................   16


Abbreviations

    CFIUS                Committee on Foreign Investments in the United States
    ICE                  United States Immigration and Customs Enforcement
    NDAA                 National Defense Authorization Act
    OFAC                 Office of Foreign Assets Control
    OIG                  Office of Inspector General
    Treasury             Department of the Treasury




                         EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                                  Page 1
                         OIG Recommendations (OIG-07-040)
        This page intentionally left blank.




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 2
OIG Recommendations (OIG-07-040)
                                                                                  Audit
OIG
The Department of the Treasury
                                                                                  Report
Office of Inspector General




                      June 12, 2007

                      Clay Lowery
                      Acting Under Secretary for International Affairs

                      Adam J. Szubin
                      Director, Office of Foreign Assets Control

                      This report presents the results of an audit we conducted to follow
                      up on recommendations from two prior Office of Inspector General
                      (OIG) reports on the Department of the Treasury’s enforcement of
                      controls for the export of militarily sensitive technology to
                      countries and entities of concern. We conducted this follow-up
                      audit under the auspices of an interagency working group of OIGs
                      that focused on federal agencies’ implementation of such controls.1
                      The working group was established to help carry out certain
                      reporting requirements of the National Defense Authorization Act
                      (NDAA) for Fiscal Year 2000,2 as amended by the NDAA for Fiscal
                      Year 2001.3

                      The objective of this audit was to determine whether Treasury had
                      effectively implemented recommendations in audit reports issued
                      during fiscal years 2000 and 2003.4 The fiscal year 2000 report
                      contained one recommendation, addressed to the Chair of the
                      Committee on Foreign Investment in the United States (CFIUS).
                      The fiscal year 2003 report contained two recommendations,
1
  The participating agencies for the fiscal year 2007 working group consists of the OIGs of the
Departments of Commerce, Defense, Energy, Homeland Security, State, Treasury, the United States
Postal Service, and the Central Intelligence Agency.
2
  Pub. L. 106-65, § 1402, 113 Stat. 798 (Oct. 5, 1999).
3
  Pub. L. 106-398, § 1204, 114 Stat. 1654A-325 (Oct. 30, 2000).
4
  Department of the Treasury Efforts to Prevent Illicit Transfers of U.S. Military Technologies,
OIG-00-072 (Mar. 23, 2000); Export Enforcement: Numerous Factors Impaired Treasury's Ability to
Effectively Enforce Export Controls, OIG-03-069 (Mar. 25. 2003).

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                       Page 3
                      OIG Recommendations (OIG-07-040)
               addressed to the Director of the Office of Foreign Assets Control
               (OFAC). The responding Treasury officials concurred with the
               recommendations and outlined actions planned in response to the
               recommendations.

               We conducted our audit fieldwork from December 2006 through
               March 2007. We met with officials of the Office of Investment
               Security, which is part of the Office of International Affairs, and
               OFAC. We also reviewed relevant CFIUS and OFAC
               documentation. Appendix 1 contains a more detailed description of
               our objective, scope, and methodology.


Results in Brief
               In our 2000 report, we recommended that the CFIUS Chair
               coordinate efforts with other committee members to identify and
               evaluate all sources of available data that could help identify Exon-
               Florio non-filers. After identifying data sources, CFIUS was to
               develop a methodology and establish procedures for using these
               data sources effectively. We found the procedure that CFIUS
               implemented in response to our recommendation was effective.

               In our 2003 report, we recommended that the Director of OFAC
               coordinate with State Department officials to implement an
               automated process to allow both agencies to track the status of
               license determination referrals. We also recommended that the
               Director of OFAC coordinate with Customs officials to ensure that
               OFAC investigative referrals can be linked to Customs’ cases. We
               found that OFAC had implemented procedures that fulfilled the
               intent of these two recommendations but had not formalized the
               procedures as written policy. We recommend OFAC develop
               written policy to formalize the procedures. OFAC agreed to
               implement the recommendations in its response to our report.

               We obtained written comments to a draft of this report from the
               Assistant Secretary of International Affairs and the Director of
               OFAC. The comments are provided in appendix 2.




               EXPORT CONTROLS: CFIUS and OFAC Implemented Prior               Page 4
               OIG Recommendations (OIG-07-040)
Background
                     Reporting Under NDAA

                     The NDAA for Fiscal Year 2000 requires the President to submit
                     annual reports to Congress through fiscal year 2007 on transfers of
                     militarily sensitive technology to countries and entities of concern.
                     The reports’ contents are to include audits by the Inspectors
                     General of the Departments of Commerce, Defense, Energy, and
                     State of policies and procedures related to the export of
                     technologies and technical information to countries and entities of
                     concern.5 The reporting requirement was amended in fiscal year
                     2001 to require that the annual interagency report include OIG
                     follow-up on the status or disposition of recommendations made in
                     earlier reports.6

                     Although Treasury enforces export controls, Treasury OIG was not
                     required to participate in the audits mandated by the 2000 and
                     2001 laws. Nevertheless, we chose to participate when the
                     interagency working group addressed topics specifically relevant to
                     the Department’s enforcement efforts. The topics scheduled for
                     review were decided by the interagency working group in 2000.
                     For fiscal year 2007, the interagency working group decided that
                     the report would include a review of how effectively agencies had
                     addressed recommendations made in previously issued reports. The
                     findings in this report represent our contribution to that effort.

                     Treasury OIG issued three audit reports in support of the NDAA.
                     The reports contained a total of 16 recommendations, but only 3
                     remain applicable to Treasury. The other 13 recommendations were
                     addressed to management of entities that are no longer part of
                     Treasury – the legacy U.S. Customs Service and Bureau




5
 Pub. L. 106-65, § 1402(b)(3), 113 Stat. 798 (Oct. 5, 1999).
6
 Pub. L. 106-65, § 1402, was amended by Pub. L. 106-398, § 1204, 114 Stat. 1654A-325 (Oct. 30,
2000).

                     EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                   Page 5
                     OIG Recommendations (OIG-07-040)
                      of Alcohol, Tobacco and Firearms.7 Of the 3 remaining
                      recommendations, 1 was directed to CFIUS and the other 2 to
                      OFAC.

                      CFIUS

                      CFIUS was established in 1975 mainly to monitor and evaluate the
                      effect of foreign investment in the United States. The Secretary of
                      the Treasury was designated the Chair of CFIUS.8 In 1988,
                      Congress passed the Exon-Florio amendment to the Defense
                      Production Act of 1950.9 The amendment authorized the President
                      or his designee to (1) receive voluntary notices from companies
                      engaged in transactions subject to Exon-Florio; (2) to determine
                      whether a particular acquisition has national security issues; and
                      (3) as appropriate, to undertake investigations. The President
                      delegated these authorities to CFIUS. Exon-Florio also gave the
                      President authority to prohibit or suspend a transaction if necessary
                      to protect national security, and the President retained this
                      authority.

                      In our 2000 report,10 we found that although CFIUS did deter some
                      foreign acquisitions that may have had national security
                      implications, it needed to do more to identify nonfilers engaged in
                      activities subject to Exon-Florio. Our specific recommendation was
                      as follows:

                      We recommend that the CFIUS Chair coordinate efforts with other
                      Committee members to identify and evaluate all sources of
                      available data that can assist in identifying Exon-Florio non-filers.
                      Once data sources are identified, CFIUS needs to develop a
7
  The border security and inspection arm of the U.S. Customs Service is now part of the Bureau of
Customs and Border Protection; the enforcement and investigation arms of the U.S. Customs Service
and the law enforcement arm of the Immigration and Naturalization Service is now part of U.S.
Immigration and Customs Enforcement (ICE). Both Customs and Border Protection and ICE are within
the Department of Homeland Security. The Bureau of Alcohol, Tobacco and Firearms is now within the
Department of Justice and is known as the Bureau of Alcohol, Tobacco, Firearms and Explosives.
8
  The other CFIUS member agencies are the Departments of State, Defense, Justice, Commerce, and
Homeland Security; the Office of Management and Budget; the Council of Economic Advisers; the
National Economic Council; the Office of the United States Trade Representative; the Office of Science
and Technology Policy; and the National Security Council.
9
  50 U.S.C. App. § 2170.
10
   OIG-00-072.

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                          Page 6
                      OIG Recommendations (OIG-07-040)
                   methodology and establish procedures as to how these data
                   sources can be effectively used to meet its responsibilities.

                   CFIUS concurred with our recommendation.

                   OFAC

                   OFAC, located within Treasury’s Office of Terrorism and Financial
                   Intelligence, administers and enforces economic and trade
                   sanctions against targeted foreign countries, organizations that
                   sponsor terrorism, and international narcotics traffickers, based on
                   U.S. foreign policy and national security goals. OFAC regulations
                   require exporters, importers, and others under U.S. jurisdiction to
                   obtain OFAC licenses before engaging in any type of commercial
                   transactions with targeted countries or nationals.

                   During our 2003 audit,11 we found that OFAC sent referrals to the
                   State Department for license determinations when OFAC was
                   unsure whether to grant licenses to exporters. The State
                   Department, however, did not routinely process these referrals
                   promptly, resulting in delays in OFAC license approvals. Both State
                   Department and OFAC officials attributed the State Department’s
                   processing delays to (1) mandatory rotation cycles that required
                   employees within the Bureau of Economic and Business Affairs,
                   Office of Economic Sanctions Policy, to rotate every two years and
                   (2) the State Department’s lack of an automated system to track
                   OFAC referrals.

                   We also found during our 2003 audit that OFAC referred
                   approximately 30 cases to Customs each year for criminal
                   investigation and that Customs initiated its own investigations of
                   OFAC export violations. We determined that Customs did not
                   always inform OFAC when Customs closed an OFAC investigative
                   referral, decided not to take action on an OFAC referral, or initiated
                   its own investigation of export violations. In addition, Customs and
                   OFAC used different numbers to identify referrals; as a result,
                   OFAC officials said they found it difficult to link their referrals to a
                   Customs’ investigative case number. The failure of Customs to
                   notify OFAC officials about closed referrals and investigations

11
     OIG-03-069.

                   EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                  Page 7
                   OIG Recommendations (OIG-07-040)
            hampered OFAC’s ability to assess civil penalties when it was
            determined that criminal prosecution was not warranted.

            As a result of these findings, we made the following two
            recommendations:

            1. The Director of OFAC should coordinate with State Department
               officials to implement an automated process to allow both
               agencies to track the status of license determination referrals.

            2. The Director of OFAC should coordinate with Customs officials
               to ensure OFAC investigative referrals can be linked to
               Customs’ cases.

            OFAC concurred with these recommendations.


Findings and Recommendations

            CFIUS Established and Implemented Procedures to Help
            Identify Nonfilers

            In response to our recommendation, the CFIUS Chair established
            procedures for coordinating with other Committee members to
            identify and evaluate data sources to help identify Exon-Florio
            nonfilers. Specifically, CFIUS members met in May 2000 to identify
            available sources of data and developed a procedure for reporting
            non-notified transactions. The procedure requires CFIUS members
            to provide the Committee Chair with information on transactions
            they believe may be appropriate for review by the Committee under
            Exon-Florio. Upon receipt of the information, the Committee Chair
            is to add public information and develop a list of non-notified
            transactions. This list is then to be circulated to member agencies
            for review. If a CFIUS member believes that the parties in the
            transaction should file, CFIUS is to take appropriate action. This
            procedure has been used by members to identify non-notified
            transactions since 2000.




            EXPORT CONTROLS: CFIUS and OFAC Implemented Prior               Page 8
            OIG Recommendations (OIG-07-040)
OFAC Has Taken Steps to Track Referrals to Other
Agencies but Lacks Written Policy

We found that, in response to our recommendations, OFAC took
steps to coordinate with the State Department on license referrals
and with ICE on investigative referrals.

OFAC Coordination with the State Department

OFAC established regular meetings with the State Department to
review license determination referrals and, since 2003, monthly
meetings have been held and attended by Licensing Officers and
office Directors. These meetings are used to elevate licensing
policy issues between OFAC and the State Department. However,
OFAC did not implement an automated process that allows both
agencies to access each other’s system to track the status of
licensing determination referrals because it said that the cost was
prohibitive. According to OFAC personnel, institution of the
monthly meetings has resolved most of the timeliness issues that
the recommendation was intended to address.

OFAC Coordination with ICE

OFAC has coordinated with ICE and held regular meetings to
review the status of ICE-initiated investigations and OFAC referrals.
During these meetings, ICE has provided its active embargo case
reports to OFAC for review. These reports detail the status of both
ICE-initiated investigations and OFAC referrals. To link OFAC
referrals to ICE cases, OFAC assigns case names to their referrals
and ICE utilizes these OFAC case names in their active embargo
reports.

The steps OFAC took to coordinate with the State Department on
license referrals and with ICE on investigative referrals fulfilled the
intent of our recommendations. However, OFAC does not have
written policy in place that formalizes these procedures. The
meetings with the State Department and ICE represent an
important internal control, defined in the Government
Accountability Office’s Standards for Internal Control in the Federal
Government as the plans, methods, and procedures used to meet


EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                 Page 9
OIG Recommendations (OIG-07-040)
                      missions, goals, and objectives. Further, internal control should be
                      clearly documented and the documentation should be readily
                      available for examination.12 Without a written policy requiring
                      continued coordination with the State Department and ICE, lapses
                      in coordination could occur in the future.

                      Recommendations

                      To help ensure continuity of coordination between OFAC and the
                      State Department and OFAC and ICE, we recommend the Director
                      of OFAC do the following:

                      1. Ensure OFAC develops written policy to formalize the procedure
                         of having monthly meetings with the State Department to
                         review the status of license determination referrals.

                      2. Ensure OFAC develops written policy to formalize the procedure
                         of having regular meetings with ICE to review the status of ICE-
                         initiated investigations and OFAC referrals.

                      Management Response

                      OFAC concurred with the two recommendations. OFAC has drafted
                      a policy memo to ensure continued implementation of their current
                      practice of conducting monthly meetings with the Department of
                      State to resolve issues relating to license applications submitted to
                      OFAC that involve foreign policy issues. OFAC has also drafted a
                      policy memo to ensure continued implementation of their current
                      practice of coordinating with criminal law enforcement agencies,
                      including ICE, concerning violations of OFAC regulations. OFAC
                      was to distribute both policy memos no later than May 30, 2007.

                      OIG Comment

                      Management’s planned actions are responsive to the intent of our
                      recommendations.



12
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1 (November 1999).

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                        Page 10
                      OIG Recommendations (OIG-07-040)
                           * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5400 or Alain Dubois, Director of Banking
Audits, at (202) 927-0382. Major contributors to this report are
listed in appendix 3.




Marla A. Freedman
Assistant Inspector General for Audit




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior           Page 11
OIG Recommendations (OIG-07-040)
Appendix 1
Objective, Scope, and Methodology




Our objective was to determine whether certain prior OIG
recommendations directed to the Chair of the Committee on
Foreign Investments in the United States (CFIUS) and to the
Director of the Office of Foreign Assets Control (OFAC) had been
implemented. These recommendations are restated on pages 6
and 8.

To accomplish this objective, we performed the following activities:

   •   Conducted interviews with Office of Investment Security
       personnel
   •   Reviewed CFIUS guidance on non-notified transactions
   •   Conducted interviews with current OFAC managers and one
       former OFAC manager
   •   Reviewed and analyzed an OFAC report on all outstanding
       referrals to the State Department
   •   Reviewed OFAC documentation related to monthly meetings
       with the State Department
   •   Reviewed a U.S. Immigration and Customs Enforcement
       report on Active Embargo Cases

We performed our audit from December 2006 through March 2007
in accordance with generally accepted government auditing
standards.




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior            Page 12
OIG Recommendations (OIG-07-040)
Appendix 2
Management Comments




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 13
OIG Recommendations (OIG-07-040)
Appendix 2
Management Comments




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 14
OIG Recommendations (OIG-07-040)
Appendix 3
Major Contributors To This Report




Alain Dubois, Director, Banking Audits
Jeffrey Dye, Audit Manager
Amnoiphorn Bannavong, Program Analyst
Bobbie Gambrill, Auditor
Esther Tepper, Communications Analyst
Horace Bryan, Referencer




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 15
OIG Recommendations (OIG-07-040)
Appendix 4
Report Distribution




The Department of the Treasury

   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of International Affairs

   Office of International Affairs
   Liaison Officer

Office of Foreign Assets Control

   Office of Foreign Assets Control
   Liaison Officer

Department of Defense

   Department of Defense Office of Inspector General

Office of Management and Budget

   OIG Budget Examiner




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior        Page 16
OIG Recommendations (OIG-07-040)
